W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1717
Public Utility Commission of Texas and Southwestern
Bell Telephone Company d/b/a AT&T Texas

Harris County Hospital District
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

X

Southwestern Bell Telephone Company d/b/a AT&T Texas

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

X

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

June 14, 2021

Date:

(Type or print) Name

Gavin R. Villareal
X Mr.

Ms.

Mrs.

Firm

Baker Botts L.L.P.

Address

98 San Jacinto Blvd., Suite 1500

City & State

Austin, Texas

Phone

(512) 322-2652

Miss

Zip
Email

78701

gavin.villareal@bakerbotts.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Thomas R. Bray, counsel for petitioner
John R. Hulme, counsel for respondent Public Utility Commission of Texas

